APPENDIX

A

Filed 5/7/20 P. v. Bock CA4/2

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
publication ^ord^ed published^ exce^asTpecl^^by'm^'s.fflsfbl^Thi^opinion'has'no^been'certified fo^puWication
_______ or ordered published for purposes of rule 8.1115.________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION TWO

THE PEOPLE,
Plaintiff and Respondent,

E070783

v.

(Super.Ct.No. FVI1502171)

JACOB ARNOLD BOCK et al.,

ORDER MODIFYING OPINION
AND DENYING PETITION FOR
REHEARING

Defendants and Appellants.

[NO CHANGE IN JUDGMENT]

THE COURT:
It is ordered that the opinion filed herein on April 28, 2020, be modified as follows:
1. On page 20, after the sentence ending “... and thereby denies him due process,”
add the following as footnote 9:
“Although Comrie did not raise this issue in his opening brief, he filed a
notice of joinder pursuant to California Rules of Court, Rule 8.200(a)(5),
joining in Bock’s argument. Our analysis here, rejecting Bock’s argument,
applies equally to Comrie.”

1

There is no change in the judgment.

The petition for rehearing is denied.
NOT TO BE PUBLISHED IN OFFICIAL REPORTS

RAPHAEL
J.
We concur:
CODRINGTON
Acting P. J.
SLOUGH
J.

2

Filed 4/28/20 P. v. Bock CA4/2 (unmodified opinion)

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
_______________________________ or ordered published for purposes of rule 8.1115.________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION TWO

THE PEOPLE,
Plaintiff and Respondent,

E070783

v.

(Super.Ct.No. FVI1502171)

JACOB ARNOLD BOCK et al.,

OPINION

Defendants and Appellants.
APPEAL from the Superior Court of San Bernardino County. John M. Tomberlin,
Judge. Affirmed with directions.
Robert J. Beles and Joseph L. Ryan for Defendant and Appellant Jacob Arnold
Bock.
Joshua L. Siegel, under appointment by the Court of Appeal, for Defendant and
Appellant Kyle Comrie.
Xavier Becerra, Attorney General, Julie L. Garland, Assistant Attorney General,
Eric A. Swenson and Allison V. Acosta, Deputy Attorneys General, for Plaintiff and
Respondent.

1

Defendants and appellants Jacob Arnold Bock and Kyle Patrick Comrie were
convicted of first degree murder, first degree robbery, and first degree burglary in a joint
trial conducted with separate juries. Bock’s jury also found true firearms enhancements,
which had been alleged only against him. The trial court sentenced Bock to 50 years to
life and sentenced Comrie to 25 years to life.
Bock, who was 15 years old at the time of the murder, contends that pursuant to
Senate Bill No. 1391 (2017-2018 Reg. Sess.) (Sen. Bill 1391) (Stats. 2018, ch. 1015, § 1)
we should vacate his sentence and remand the matter with instructions that it be
transferred from adult criminal court to juvenile court for a disposition hearing, with the
jury’s verdict treated as a juvenile adjudication. In addition, Bock argues that his
statement to police was involuntary, that his Miranda v. Arizona (1966) 384 U.S. 436
rights were violated, that the jury’s instructions were contradictory and confusing in
certain respects, and that each of these errors requires reversal. Finally, Comrie and Bock
both contend that their murder convictions must be reversed because the trial court did
not instruct the jury on the additional elements of first degree felony murder required by
Senate Bill No. 1437 (2017-2018 Reg. Sess.) (Sen. Bill 1437) (Stats. 2018, ch. 1015)
Bock’s first argument, as the People concede, has merit. We reject defendants’
remaining arguments. We therefore affirm the judgment against Comrie. We vacate the
sentence imposed on Bock and remand his case to the trial court with directions to
transfer it to juvenile court for an appropriate disposition.

2

I. BACKGROUND
On August 24, 2015, a law enforcement officer discovered the victim in this case,
an older man, lying on his back partially underneath his motorhome, deceased. He had
various wounds on his body that appeared to the officer to be either contusions or bum
marks, and lividity and rigor mortis appeared to have set in. Forensic examination would
later reveal the victim had suffered blunt force trauma to the head, torso, and extremities,
possibly from being kicked or hit with a baseball bat, as well as a gunshot wound to the
neck. The medical examiner opined that the gunshot wound was the immediate cause of
death; the blunt force trauma to the head would also have been fatal if left untreated, but
the victim was still alive when he was shot.
Bock and Comrie were interviewed separately by police, and each confessed to
some involvement in the victim’s death, albeit with caveats and explanations.
Information from a third person also implicated Bock and Comrie in the murder. Police
recovered the bat used to beat the victim. The gun used in the murder had belonged to
the victim; it was taken from the scene and later destroyed by Bock and Comrie.
Bock and Comrie were both charged with one count of first degree murder (Pen.
1

Code ,§187, subd. (a); count 1), one count of first degree residential robbery (§211;
count 2), and one count of first degree burglary with a person present (§ 459; count 3)).
The information further alleged with respect to counts 1 and 2 that Bock had personally
and intentionally discharged a firearm, proximately causing great bodily injury (§
i

Further undesignated statutory references are to the Penal Code.

3

12022.53, subd. (d)), personally and intentionally discharged a firearm (§ 12022.53, subd.
(c)), and personally used a firearm (§ 12022.53, subd. (b)). With respect to count 3, the
information alleged that Bock had personally used a firearm (§§ 1203.06, subd. (a)(1),
12022.5, subd. (a)). For all three counts, the information alleged that Bock “was a minor
who was at least 14 years of age” at the time the offenses were committed (former Welf.
& Inst. Code, § 707, subds. (d)(2)(A), (d)(2)(B) (Stats. 2010, ch. 178, § 97, operative Jan.
1,2012).
Bock, who was 15 years old at the time of the murder, requested before trial that
his case be moved to juvenile court. In response, the prosecutor requested a transfer
hearing pursuant to former Welfare and Institutions Code section 707, subdivision (a).
The juvenile court conducted a transfer hearing, and it concluded that Bock’s case should
be transferred to adult criminal court.
Two separate juries were impaneled, one for each defendant. The trial court
instructed the juries on two theories of first degree murder: willful, deliberate, and
premeditated murder, and first degree felony murder. The prosecution argued that either
defendant could be convicted under either theory.
Comrie’s jury found him guilty on each of the three counts. Bock’s jury found
him guilty on each of the three counts and it found each of the enhancement allegations to
be true. The trial court sentenced Bock to 50 years to life, consisting of a term of 25
years to life for count 1, plus a term of 25 years to life for the section 12022.53,
subdivision (d) enhancement of that count, and stayed terms for counts 2 and 3 and their

4

enhancements. The court sentenced Comrie to 25 years to life on count 1, and stayed
terms for counts 2 and 3.
II. DISCUSSION
A. Sen. Bill 1391
Bock has not argued that the juvenile court erred by transferring his case to adult
criminal court under the law in effect at the time. Following the enactment of Sen. Bill
1391, however, Welfare and Institutions Code section 707 no longer permits any
individuals who were under 16 years of age when they committed a felony to be
transferred to adult criminal court. (People v. Castillero (2019) 33 Cal.App.5th 393, 399;
Welf. & Inst. Code, § 707, subd. (a).) The parties agree that Sen. Bill 1391 is retroactive
to defendants whose cases were not final on the effective date of the legislation, January
1, 2019. The statute is ameliorative, in that it dramatically reduces the potential
punishment for those who qualify for application of the statute. (People v. Superior
Court (Lara) (2018) 4 Cal.5th 299, 308-309.)
The parties agree that Sen. Bill 1391 must be applied to this appeal because the
case is not yet final, and Bock was 15 years old at the time of the murder. We note that,
although most appellate courts to consider the issue have found Sen. Bill 1391
constitutional, that conclusion has not been unanimous, arid the issue of whether it
unconstitutionally conflicts with the voters’ 2016 Proposition 57 initiative is now pending
before the California Supreme Court. (See Narith S. v. Superior Court (2019) 42
Cal.App.5th 1131, 1136-1140 [discussing split in Courts of Appeal, noting that Supreme

5

Court has granted review in four cases].) Here, however, no party has challenged the
constitutionality of Sen. Bill 1391. Moreover, we agree with the conclusion of the
majority of appellate courts to have considered the issue, including ours, who have found
Sen. Bill 1391 constitutional. (See, e.g., B.M. v. Superior Court (2019) 40 Cal.App.5th
742, 747.) Bock’s sentence is vacated and the matter remanded for his case to be
transferred to the juvenile court for an appropriate disposition. (See People v. Castillero,
supra, 33 Cal.App.5th at p. 400 [so ordering in similar circumstances].)
B. Bock’s Statement to Police
Bock contends that the trial court erred by admitting his statement to police,
arguing that the statement should be considered involuntary under the circumstances, and
that he had invoked his Miranda rights by requesting to speak to his father. We find no
error.
1. Additional background
In September 2015, Bock was interviewed by two members of the San Bernardino
County Sheriffs Department. Bock was detained at his home and then driven to the
sheriffs department headquarters for the interview—a drive of about 40 minutes, during
which he sat in the front seat, and was not handcuffed. Bock was informed of his
Miranda rights before that drive and agreed to speak with the officers, Bock’s
discussions with the officers were recorded.
The portion of Bock’s discussions with the officers that was admitted at trial was
conducted in an interview room at the headquarters. One officer took the lead in

6

conducting the interview, though a second officer was also present and asked a few
questions. During the discussion, Bock explained that the victim had been living in a
motorhome on Bock’s family’s property, but that he had been kicked off the property by
Bock’s father not long before the murder. Bock initially denied knowing why the victim
had been asked to leave, and said that the victim had also expressed that he did not know
why Bock’s father wanted him to go. Possible reasons mentioned by Bock included the
victim’s use of electricity repeatedly causing breakers to trip, that the victim’s dog had
bitten someone, and allegations “going around” that the victim was a pedophile and child
molester.
Bock stated that he and his girlfriend would hang out with the victim as friends.
He initially described the last time he saw the victim as being about a week before the
victim was found dead. This was after the victim had been required to leave Bock’s
family’s property, but Bock and the victim nevertheless were still “‘cool’” with one
another. Bock said that he did not believe the allegations that the victim was a pedophile;
the victim had never tried to molest Bock, and he had acted kindly toward Bock, his
brother, and other young family members. Bock denied ever having any “problems” with
the victim, and said that he would never “do anything to hurt the guy.”
After a break, the interviewer told Bock that they were talking to “multiple
people,” and that they knew Bock was more involved in the victim’s death than he had
previously let on. The interviewer encouraged Bock to explain his side of the story,
telling him: “It’s not a matter of if[,] Jaccob, it’s a matter of why. This is your time to

7

explain to me and [the other officer] what happened.” Bock was persuaded to change his
story. He stated that he had learned from his father that the victim had sexually molested
Bock’s niece, and that was why the victim had been thrown off the family’s property.
Bock went to the victim’s house to confront him. The victim “started getting all loud,”
and then attacked Bock, first throwing a punch and then retrieving his gun and firing a
shot at him. In response, Bock started punching the victim, took the gun from him, and
shot him with it.
After some further discussion of the details of this story, the interviewer suggested
(without quite stating as a fact) that a neighbor’s camera had recorded Bock at the
victim’s residence, and asked that Bock be “very specific” about “exactly how it went
down.” Bock again told the story that he had been acting in self-defense, after
confronting the victim about him molesting the young relative. Again, Bock only
admitted to punching the victim with his fists before taking the gun from the victim.
The interviewer then asked: “Okay. When you first walked up, what were you
holding in your hand?” Bock conceded that he had been holding “a [bjaseball bat.” He
soon admitted that he had been trying to “play[] it off like it was self defense,” but that it
was not. Bock admitted that he went to the victim’s home with someone else, though he
initially declined to identify that person. The plan was for the other person to lure the
victim out of his motorhome, and then Bock would hit him from behind and beat him up.
Bock stated that he was “mad” but that he “didn’t mean for it to go the .. . way it did”;
the plan went awry when the victim recognized Bock during the beating. Bock hit the

8

victim with a bat more times than he could remember. Regarding underlying motive for
the attack, Bock explained, with profane emphasis: “I told him if he . .. came near my
niece again before he . .. left I was going to . .. kill him. And he .. . did!”
Bock also admitted to taking items from the victim, including marijuana, some
pipes, a box of ammunition, and the gun. According to Bock, after beating the victim, he
dropped a bag of the victim’s items off at the vehicle he and Comrie had driven to the
scene before returning and shooting the victim. Bock stated that he believed the victim
was already dead from the beating—he was lying unconscious and unmoving—but he
shot him anyway: he “[djidn’t want to take the chance because he knew who I was.”
After a break in the discussion, the interviewer asked a question premised on the
2

assumption that it was Bock’s brother who assisted Bock in the attack on the victim. At
the time of the interview, the police considered Bock’s brother to be a “person of
interest.” Bock responded “My brother ... was not with me.” The interviewer
suggested: “you need to probably point us in the right direction, who your buddy was. I
know you don’t want to be a rat but you know, certain things are pointing towards your
brother.” Bock responded “My brother did not... do it, dude.” The interviewer asked

2

The interviewer, this time the second officer who had been mostly silent during
the rest of the interview, asked “When you went over, you said you and James went. ..
over on your quad and you parked it over there and you said .. . .” Bock then interrupted
to clarify that the interviewer was referring to his brother, before denying his brother’s
involvement and shortly thereafter identifying Comrie. The interviewer’s question was,
it seems, a ruse: Bock had previously declined to identify the other person who
participated in the murder.

9

who did, and Bock then identified a “friend” named “Kyle,” who he described as an adult
he knew through his (Bock’s) girlfriend.
At three points during his interview, Bock either directly asked to speak to his
father, or suggested that he might want to. The first time, near the beginning of the
interview, came after the officer asked if Bock would be willing to take a polygraph test.
Bock said that he had “no problem” taking one, but indicated that his father might have a
problem with it.3
Later, after the interviewer told Bock that he did not believe his claim that he was
not involved in the victim’s death and asked him to explain what really happened, Bock
responded that he did not want to “say the wrong thing,” and that he “[didn’t] really
know what to say.” Bock then said “I’m not gonna say anything . . . else until... I talk
to my dad in person.” The interviewer told Bock that he was not going to be able to

3

This portion of the interview transcript reads as follows:

“Bock: I mean, I have no problem doing it but my dad“[Interviewer]: What do you think“Bock: My dad“[Interviewer]: What do you think those results would be if, if you know, you were to
take one?
“Bock: I’m not lying so, you want to hook me up right now I’m with it, but“[Interviewer]: Okay.
“Bock: I ain’t got no problem taking one.”

10

4

speak to his dad in person, and encouraged Bock to continue talking. Bock decided to
do so, and the interview continued, with Bock initially claiming he killed the victim only
in self defense.
4

This portion of the transcript reads as follows:

“[Interviewer]: All right. What happened, man?
“Bock: Um, honestly I don’t wanna say the wrong thing. But we’re, I. . .
“[Interviewer]: You, you you you
“Bock: .. . don’t really know what to say.
“Interviewer: “Do you wanna know what“Bock: But I’m, I’m not gonna say anything . .
“[Interviewer]: But. “Bock: .. . else until.. .
“[Interviewer]: Look“Bock: I talk to my dad in person. That’s all.. .
“[Interviewer]: Okay.
“Bock: I’m gonna say.
“[Interviewer]: Well, I, I will tell you this much. You’re not gonna talk to your dad in
person, okay? An, and you want me to level with you, right, you want me to be honest
with you, yes?
“Bock: Yeah. Yeah, be s-, be straight up with me.
“[Interviewer]: You, you’re not gonna talk with your dad in person, okay? And, and your
dad can’t answer some of the questions that we’re asking you. Cause you, was your dad
there with you? I don’t know, I need you to explain those things to me. This is a mat-,

11

Finally, after Bock had already given his full account of the events, but before he
had identified the other person involved, he asked: “Can I see my dad? I want to see my
dad.” He did so in response to a question about whether he wanted more water or some
coffee. The interviewer responded: “I don’t know if he’s here to be honest with you.”
Bock reiterated: “I want to see my dad.” The interviewer responded that he did not know
where Bock’s father was, but that he would at least let Bock call him. Bock then
continued speaking with the officers.

this is a time where Jacob decides if he, he can own up to responsibility because it’s
something that maybe, you know, you were pushed over the edge on something, and
that’s, that could be explained and understood. But I can’t understand, and people won’t
understand is when you just choose to ignore facts. It’s not, there’s a reason why it took
this, this many days to, to come and talk to you.
“Bock: Yeah.
“[Interviewer]: You understand, so . ..
“Bock: Fuck it. With all the talking, these done [sic. ] rather than just fucking tell you
guys what fucking happened dude.
“[Interviewer]: Well go ahead.”

12

2. Analysis
a. Claimed Miranda violation
Bock contends that his requests to speak with his father—particularly when he
stated that he did not want to say anything else until he spoke to his father in person—
constituted unambiguous invocation of his Fifth Amendment right to remain silent, which
should have terminated the interview. We are not persuaded.
The analysis here focuses on ‘“whether, in light of the circumstances, a reasonable
officer would have understood a defendant’s reference to an attorney [or other individual]
to be an unequivocal and unambiguous request for counsel, without regard to the
defendant’s subjective ability or capacity to articulate his or her desire for counsel, and
with no further requirement imposed upon the officers to ask clarifying questions of the
defendant.’” (People v. Nelson (2012) 53 Cal.4th 367, 380 (Nelson).) As a matter of
law, “a juvenile’s request to speak with a parent is neither a per se nor a presumptive
invocation of Fifth Amendment rights.” (Id. atp. 381.) “Where, as here, a juvenile has
made a valid waiver of his Miranda rights and has agreed to questioning, a postwaiver
request for a parent is insufficient to halt questioning unless the circumstances are such
that a reasonable officer would understand that the juvenile is actually invoking—as
opposed to might be invoking—the right to counsel or silence.” (Ibid.)
“As a reviewing court, we ‘“accept the trial court’s resolution of disputed facts and
inferences, and its evaluations of credibility, if supported by substantial evidence.
(Nelson, supra, 53 Cal.4th at p. 380.) “Although we review the record and independently

13

decide whether the challenged statements were obtained in violation of [Miranda], we
may “‘give great weight to the considered conclusions’” of the trial court.” (Ibid.)
When Bock suggested that his father might not approve of him taking a polygraph
test, he did not unambiguously or unequivocally invoke his Fifth Amendment rights.
Rather, a reasonable officer would have understood his reference to his father to mean
only, at most, that he was reluctant to take a polygraph test without first speaking to his
father. Indeed, in context, Bock even could be understood to be emphasizing his own
willingness to speak to the officers, and to submit to the test, with his only concern being
his father’s disapproval. It is well established that, even with a juvenile defendant,
“officers need not terminate the entire interrogation” because of a “conditional
invocation” of Fifth Amendment rights that is “limited to the administration of a
polygraph test.” (Nelson, supra, 53 Cal.4th at p. 382.) Similarly, Bock’s request, made
near the end of the interview, to “see” his father, was insufficient to require a halt to
questioning under well-established law. (Id. at p. 381.)
Bock’s statement that he was not going to say anything else until he saw his father
in person comes closer to an invocation of his right to remain silent. Nevertheless, in
context, a reasonable officer could have understood Bock to have been expressing only a
desire to consult with his father so that he did not say the “wrong thing,” not an
unqualified desire to remain silent. This understanding of Bock’s statement was
confirmed when the officer frankly told Bock that he was not going to get to talk to his
father in person and urged him to keep answering questions, and Bock’s immediately

14

expressed that he was willing to “just... tell you guys what. . . happened . .. .” (Cf.
People v. Villasenor (2015) 242 Cal.App.4th 42, 65-66 [defendant unambiguously and
unequivocally invoked by telling the detective to take him home 13 times in 14 minutes,
trying to retrieve his phone from the detective, repeatedly telling the detective to call his
parents, and referencing his “rights” in demanding his parents].) The trial court correctly
concluded that the officer’s decision to continue the interview by inviting Bock to “go
ahead” was not a violation of Bock’s Fifth Amendment rights.
b. Claim That Statement Was Involuntary
Bock argues that, under the totality of the circumstances, his statements to police
must be considered involuntary, and therefore inadmissible. We disagree.
“A statement is involuntary if it is not the product of ‘“a rational intellect and free
will.’”” (People v. Maury (2003) 30 Cal.4th 342, 404.) The test for determining
voluntariness is whether the defendant’s will was “‘overborne’” at the time of the
statement. {Ibid.) “A finding of coercive police activity is a prerequisite to a finding that
a confession was involuntary under the federal and state Constitutions. [Citation.] A
confession may be found involuntary if extracted by threats or violence, obtained by
direct or implied promises, or secured by the exertion of improper influence. [Citation.]
. .. The statement and the inducement must be causally linked.” {Id. at p, 404-405, italics
added.) On appeal, we defer to the trial court’s findings of historical fact if they are
supported by substantial evidence, but independently review its determination that the
defendant’s statements were voluntary. {People v. Holloway (2004) 33 Cal.4th 96, 121.)

15

Having reviewed the record, we agree with the trial court that the totality of the
circumstances demonstrate Bock’s statement was voluntary. Although Bock was an
adolescent, he had prior experience with the legal system, and demonstrated sufficient
comfort with and knowledge of the process to joke about interrogation techniques and
laugh with officers about the circumstances of his prior offenses.5 Bock was not
subjected to “dominating, unyielding, and intimidating” questioning or other
“overbearing tactics.” (Cf. In re T.F. (2017) 16 Cal.App.5th 202, 209, 218 [confession of
15-year-old suspect held involuntary in part on that basis].) He was not questioned in a
‘“leading, repeated, and suggestive fashion,’” so as to raise concerns about the reliability
of his statements. (Cf. In re Elias V. (2015) 237 Cal.App.4th 568, 578, 591 [statement by
13-year-old suspect held involuntary in part because of interviewer’s “aggressive,
deceptive, and unduly suggestive tactics”].) Although the interview lasted several hours,
it was interspersed with breaks, and there is no indication that it was unduly or
unnecessarily prolonged. (See People v. Winbush (2017) 2 Cal.5th 402, 454 [interview
sessions “were not unduly protracted” where 19-year-old defendant was interviewed in
custody for about six hours before he confessed]. Bock was allowed to use the restroom
when he needed it, and he was repeatedly offered water, coffee, and food. Although
Bock may well have been tired, and he broke down in tears as he confessed that he had
not been acting in self-defense when he killed the victim, he never asked that questioning
Near the beginning of the interview, Bock asked his two interlocutors: “This
ain’t going to be good cop, bad cop, is it?” The officers responded “Oh, no.” and “No,
it’s good cop good cop.”

16

be paused or ended so that he could rest or compose himself. (See People v. Hensley
(2014) 59 Cal.4th 788, 814-815 [confession voluntary despite defendant’s argument he
was hungry and needed medical treatment where “[h]e made no requests”].)
Moreover, even at the end of the interview, Bock felt free to push back against
interviewer assumptions or hypotheses. For example, he denied that a bat found at his
residence was the one used to beat the victim, and he rejected the interviewer’s
assumption that his brother had been with him at the victim’s residence. This strongly
suggests that his will had not been “overborne,” whether by purported coercion or by
more gentle attempts to build rapport and persuade. (See People v. Maury, supra, 30
Cal.4th atp. 404.)
Bock asserts that the interviewer made veiled threats against his family, to the
effect that “if he did not admit to killing [the victim], then his family would be punished.”
We discern no such threats in the transcript of the interview, veiled or otherwise. In the
portion that is the focus of this argument, the interviewer noted that Bock had already
expressed how much he valued his family, and acknowledged his complaints about how
the investigation had already disrupted the family.6 The interviewer told Bock that his
The exchange at issue is the following:
“[Interviewer]: You know, I know you went over there, and I need you to explain what
happened, all right? Listen, you talked about, you said, hey man, you guys came in there,
and they slammed the gate, and my family this, my family that. And I get that man.
You’re a man that likes ...
“Bock: Yeah

17

family members are among the “multiple people” that they had spoken to about the
victim’s murder. The interviewer then urged Bock to tell his own side of the story. In
context, the interviewer’s question: “well, how far do you wanna bring your family

“[Interviewer]: . .. family, right?
“Bock: Mm-hmm (affirmative).
“[Interviewer]: You’re a man that cares for your family, and I understand that, all right?
And I told you I would answer that question for you, well, how far do you wanna bring
your family down? You know, when people’s lives are at stake ...
“Bock: Yeah
“[Interviewer]: ... the truth’s gonna come out, all right?
“Bock: Mm-hmm (affirmative).
“[Interviewer]: So to me, honestly, I think you’re, you’re more of a man than a lot of
people I’ve me, so let’s just talk about the truth here. Let’s just talk about the for real
things, all right? And you know exactly what I’m talking about. I don’t need to sit here,
and show you everything that we have. I wanna hear it from Jacob’s mouth. I don’t need
to hear it from everybody else, I’m talking to the horse here. Hear it from the horse’s
mouth, you heard that saying before? Hear it from the person that was involved with
something. I know you were there, I know what happened, I wanna hear your side of the
story, okay? It’s not a matter of if, Jacob, it’s a matter of why. This is your time to
explain to me and [the other officer] what happened.
“Bock: Yeah, I understand what you’re saying.
“[Interviewer]: Mkay. People are here, you family’s here, there’s, people are talking to
us up by your house, and you know what? Things happen, I understand, but you have to
help me explain that.
“Bock: Yeah, I know what you mean.
“[Interviewer]: All right. What happened man?”

18

down” does not read as a threat, but only urging Bock to help them bring the
investigation to a close, and thereby stop having to disturb the family. (See People v.
Orozco (2019) 32 Cal.App.5th 802, 820 [“Law enforcement does not violate due process
by informing a suspect of the likely consequences of the suspected crimes or of pointing
out the benefits that are likely to flow from cooperating with an investigation”].) This
innocuous understanding of the interviewer’s statements is supported by the interviewer’s
emphasis that he just wants to “talk about the truth here” and “talk about the for real
things.” Obviously, the interviewer was trying to persuade Bock to confess to his
involvement in the murder, but we discern nothing constituting impermissible coercion.
Bock further complains that the officers “presented [him] with false evidence and
blatant lies that his own brother had implicated him in the murder and that they had seen
video footage of him at [the victim’s] trailer.” It is well established, however, that “‘[s]o
long as a police officer’s misrepresentations or omissions are not of a kind likely to
produce a false confession, confessions prompted by deception are admissible in
evidence .... The cases from California and federal courts validating such tactics are
legion.’” (People v. Mays (2009) 174 Cal.App.4th 156, 165.) Here, the officers did not
berate a child into admitting facts suggested by the questioning itself, as occurred in a
case Bock emphasizes on appeal, In re Elias (2015) 237 Cal.App.4th 568, 578. Rather,
the interviewer persuaded Bock that his lies were not holding up to what the officers
already knew, and for the most part let Bock supply the details of each successive variant
of his story. And, as noted, where the interviewer supplied an incorrect assumed detail,

19

as when he identified Bock’s brother as the accomplice, Bock had the wherewithal to
insist on his own view of the facts.
Considering the totality of the circumstances, we find the People carried their
burden to show Bock’s statements to police were made of his own free will.
C. Jury Instructions
Bock’s jury was instructed with CALCRIM No. 372, regarding use of flight as
evidence of awareness of guilt.7 Also, as part of its instructions regarding felony murder,
the jury was instructed on the so-called escape rule, addressing how to determine when a
8

robbery or burglary is completed. Bock has not argued, either here or in the trial court,
that either of these instructions taken alone are erroneous. He asserts for the first time on
appeal, however, that together the instructions are “contradictory and confusing,” and
thereby denied him due process. This argument fails for several reasons.
First, “the long-standing general rule is that the failure to request clarification of
an instruction that is otherwise a correct statement of law forfeits an appellate claim of
error based upon the instruction given.” (People v. Rundle (2008) 43 Cal.4th 76, 151,

7

The instruction, as given, reads: “If a defendant fled immediately after the crime
was committed, that conduct may show that he was aware of his guilt. If you conclude
that a defendant fled, it is up to you to decide the meaning and importance of that
conduct. However, evidence that the defendant fled cannot prove guilt by itself.”
8

This instruction, CALCRIM No. 3261, provided in relevant part that a robbery
or burglary “continues until [a defendant] has reached a place of temporary safety,” and
defined “place of temporary safety” to mean that “they have successfully escaped from
the scene, are [not or are] no longer being chased, and have unchallenged possession of
the property.”

20

disapproved on another ground by People v. Doolin (2009) 45 Cal.4th 390, 421, fn. 22.)
Bock raised no objection to the instructions on flight or the escape rule in the trial court.
He therefore forfeited the argument he now raises for the first time on appeal.
Second, we find nothing confusing or contradictory about the instructions. There
is no contradiction in the circumstance that reaching a place of temporary safety ends a
robbery or burglary, and also that flight from the scene may be viewed as evidence of
consciousness of guilt. Both things are simply true. The same fact may tend to exculpate
Bock when viewed from one perspective (by cutting off liability for felony murder from
that point forward, because the robbery or burglary is over), but also may be understood
to implicate Bock from another perspective (because fleeing from the scene may be
understood as consciousness of guilt). This means only that Bock was, perhaps, stuck
between a rock and a hard place because of adverse evidence. It does not mean that the
jury instructions were in any way erroneous or could have benefitted from further
clarification. Indeed, Bock has not proposed even on appeal how, precisely, he believes
the instructions could have or should have been changed to address the purported issues
he now raises.
Bock’s claim of instructional error is rejected, both because it was forfeited and
because it is without merit.
D. Sen. Bill 1437
Comrie and Bock contend that the trial court erred by failing to instruct the jury
using the additional elements of first degree felony murder enacted by Sen. Bill 1437. It

21

did not. Sen. Bill 1437 had not yet taken effect at the time of trial in April 2018. Sen.
Bill 1437 provides a procedure for defendants convicted under the former law to seek
relief, but Comrie and Bock have not yet availed themselves of it.
Sen. Bill 1437, which took effect on January 1, 2019, “addresses certain aspects of
California law regarding felony murder and the natural and probable consequences
doctrine[.]” (.People v. Martinez (2019) 31 Cal.App.5th 719, 722 (Martinez).) Before
Sen. Bill 1437, “a person who knowingly aided and abetted a crime, the natural and
probable consequence of which was murder or attempted murder, could be convicted of
not only the target crime but also of the resulting murder or attempted murder.” (People
v. Munoz (2019) 39 Cal.App.5th 738, 749 (Munoz), review granted Nov. 26, 2019,
S252291.) “This was true irrespective of whether the defendant harbored malice
aforethought. Liability was imposed ‘“for the criminal harms [the defendant].. .
naturally, probably, and foreseeably put in motion.

(In re R.G. (2019) 35 Cal.App.5th

141, 144.)
Sen. Bill 1437 “redefined ‘malice’ in section 188. Now, to be convicted of
murder, a principal must act with malice aforethought; malice can no longer ‘be imputed
to a person based solely on [his or her] participation in a crime.’ (§ 188, subd. (a)(3).)”
(In re R.G., supra, 35 Cal.App.5th at p. 144.) It also amended section 189 to “ensure[]
that murder liability is not imposed on a person who did not act with implied or express
malice, was not the actual killer, did not act with the intent to kill, or was not a major
participant in the underlying felony who acted with reckless indifference to human life.”

22

{Munoz, supra, 39 Cal.App.5th atp. 749-750; § 189, subd. (e).) Sen. Bill 1437 “also
added section 1170.95, which permits persons convicted of murder under a felony murder
or natural and probable consequences theory to petition in the sentencing court for
vacation of their convictions and resentencing, if certain conditions are met.” {Munoz,
supra, 39 Cal.App.5th, at p. 750.)
The question of whether Sen. Bill 1437 applies retroactively to cases not yet final
on appeal is being considered by our Supreme Court. (See People v. Gentile, review
granted Sept. 11, 2019, S256698.) So far as we are aware, the courts of appeal that have
examined the issue in published opinions have all found that it does apply retroactively,
but that its retroactive effect is statutorily channeled through the section 1170.95 petition
procedure in all cases, final and nonfinal alike; courts, including this one, have declined
to apply the newly revised law of felony murder as a basis for reversal in appeals where
the trial took place before Sen. Bill 1437 took effect and the defendant has not sought
relief pursuant to section 1170.95. {Martinez, supra, 31 Cal.App.5th at pp. 724-730; see
also People v. Cervantes (Mar. 9, 2020) 46 Cal.App.5th 213, 220 [following Martinez];
People v. Anthony (2019) 32 Cal.App.5th 1102, 1147, 1153 [same]; In re Taylor (2019)
34 Cal. App.5th 543, 561-562 [same]; In re R.G., supra, 35 Cal. App.5 th atp! 151 [same].)
Bock and Comrie here repeat arguments considered and rejected by these courts.
We too find Martinez’s reasoning persuasive and will adopt it. Bock and Comrie
may petition for relief in the trial court pursuant to section 1170.95; we express no view
as to their prima facie eligibility for relief, or, assuming eligibility, whether relief may

23

ultimately be warranted. We conclude here only that Sen. Bill 1437 does not require that
their convictions be reversed so that they may be retried under the new standard for
felony murder liability.
III. DISPOSITION
The judgment against Comrie is affirmed. The sentence previously imposed on
Bock is vacated; his conviction is affirmed, but must be treated as a juvenile adjudication
under Sen. Bill 1391. The matter is remanded to the trial court with directions to transfer
Bock’s case to the juvenile court for an appropriate disposition.
NOT TO BE PUBLISHED IN OFFICIAL REPORTS

RAPHAEL
J.

We concur:
CODRINGTON
Acting P. J.

SLOUGH
J.

24

SUPREME COURT

JUN 2 4 2020
Court of Appeal, Fourth Appellate District, Division Two - No. E070783
Jorge Navarrete Clerk
S262424

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,
v.
JACOB ARNOLD BOCK et al., Defendants and Appellants.
The petition for review is denied.

CANTIL-SAKAU YE
ChiefJustice

Deputy

Additional material
from this filing is
available in the
Clerk's Office.

